SUPREME COURT OF THE UNITED STATES

r

IMA!

Case No

filed
MV 2 5 2020
CHONG LENG LEE
Petitioner,
vs.

STATE OF WISCONSIN
Respondent(s)

ON PETITION FOR A WRIT OF CERTIORARI TO THE
WISCONSIN COURT OF APPEALS DISTRICT III.

PETITION FOR WRIT OF CERTIORARI

CHONG LENG LEE #439266
P.O. BOX 351
WAUPUN, Wl 54963
PROSE

QUESTIONS PRESENTED FOR REVIEW

<*,

1.

IS DISMISSAL AVAILABLE TO REMEDY A BRADY VIOLATION AND ALSO DID CHONG
ESTABLISH A BRADY VIOLATION THAT WARRANTS DISMISSAL?

2.

DOES A YOUNGBLOOD VIOIATION REQUIRE DISMISSAL WHEN BAD-FAITH IS CONCEDED
BY THE STATE?

3.

DOES THE VIOLATIONS IN THIS CASE REACH THE CRITERIA OF THE DUE PROCESS
CLAUSE AND STOP CHONG FROM HAVING A FUNDAMENTALLY FAIR TRIAL?

4.

DOES THE POLICE' ST ACTIONS BY DESTROYING AND THEN REPLACING OTHER
EVIDENCE TO SECURE A CONVICTION CONSTITUTE A VIOLATION OF A DEFENDANT'S
RIGHT TO DUE PROCESS?

5.

DOES THE ABSENCE OF TRANSCRIPTS ENTITLE CHONG TO A NEW TRIAL WHEN THE
MISSING TRANSCRIPTS ARE NEEDED TO IDENTIFY ERRORS?

6.

DOES THE MISSING TRANSCRIPTS VIOLATE THE COURT REPORTER ACT?

7.

DOES THE MISSING TRANSCRIPTS STOP CHONG FROM HAVING A MEANINGFUL APPEAL
WHEN APPELLATE ATTORNEY IS DIFFERENT FROM TRIAL ATTORNEY?

I

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.

RELATED CASES

There are no other related case to this case in criminal courts.

y

II

TABLE OF AUTHORITIES

CASES CITED
Arizona v. Youngblood,
488 U.S. 51 (1988) .............................

5,11,14,16,17,19

Brady v- Maryland,
373 U.S. 83 (1963)...............................

2,5,11

California v. Trombetta,
467 U.S. 479 (1984).............................

11,13,14

Cost v. State,
417 Md. 360, 10 A. 3d 184 (Md. 2010)

15

Gov't of Virgin Islands v. Fahie,
419 F. 3d 249 (3rd Cir. 2005)...........

2,11

Lolly v. State,
611 A. 2d 956 (Del. 1992)..............

15

McCarty v. Gilchrist,
646 F 3d 1281 (10th Cir. 2011)..........................................

2,15

State v. Greenwold II,
189 Wis. 2d 59, 525 N.W. 2d 294 (Ct. App. 1994)...........

15,16

State v. Hahn,
132 Wis. 2d 351, 392'Tf.W.~2d 464 (Ct. App. 1986).........

14

State v. Harris,
2008 WI 15, 307 Wis. 2d 555, 745 N.W. 2d 397....... .

10

State v. Huggett,
2010 WI App 69, 324 Wis. 2d 786, 783 N.W. 2d 675.........

16

State v. Jordan,
73 Ohio App. 3d 524, 597 N.E. 2d 1165 (1992).................

12,19

State v. Lang,
176 Ariz. 475, 862 P.2d 235, 245 (Ariz. Ct. App. 1993)

15

State v. Luedtke,
2015 WI 42, 362 Wis. 2d 1, 863 N.W. 2d 592.......

15,16

92 Wis.’2d 797, 285 N.W.2d 905 (Ct. App. 1979).

23

State v. Oinas,
125 Wis. 2d 487, 373 N.W.2d 463 (Ct. App. 1985)

13

III

State v. Perry,
136 Wis. 2d 92, 401 N.W.2d 748...............................

3,20,24,25

State v. Youngblood,
153 Ariz. 50, 743 P.2d 592 (Ariz. Ct. App. 1986)

16

United States v. Agurs,
427 U.S. 97, 96 S. Ct. 2392 (1976)........................

11

United States v. Chapman,
524 F.3d 1073 (9th Cir. 2008).................................

2,10

United States v. Davis,
578 F.2d 277 (10th Cir. 1978)

2,10

United States v. Day,
697 A.2d 31 (D.C. 1997)

15

United States v. Evans,
888 F.2d 891 (D.C. Cir.1989)

2

. United States v. Pasha,
797 F.3d 1122 (D.C. Cir. 2015)

2,11

United States v. Roberts,
779 F.2d 565 (9th Cir. 1986)

14

STATUTES, RULES, AND OTHER SOURCES
2

18 U.S.C. § 1512

2, 20

28 U.S.C. § 753

20

Wis. Const. Art. I § 212(1)

2

Wis. Stat. §809.62 (lr)(c)(2)
Norman C. Bay, Old Blood, Bad Blood, and Youngblood:

Due Process, Lost Evidence

and the limits of Bad faith, 86 Wash. U.L. Rev. 241, 296 (2008)

15

Dismissal of Case Against Defendants With Prejudice As Discovery Sanctions Against
15

State, 10 A.L.R. 7th Art. 6 (2016)

IV

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

9

CONCLUSION

INDEX TO APPENDIX

APPENDIX A

Wisconsin Court of Appeals District III decision
390 Wis. 2d 426, 939 N.W. 2d 427 (table), 2020 WI App 6.

APPENDIX B

Decision denying motion to reconsider.

APPENDIX C

Motion to reconsider.

APPENDIX D

Written order denying admissibility of "beat this case." (r.95)

APPENDIX E

Letter to Stephanie Thao referencing "beat this case." (R.167)

APPENDIX F

Question from jury and court's response.

APPENDIX G

Excerpt from May 25, 2015 motion hearing. (R.328)

APPENDIX H

Excerpt from Septenber 29, 2015 motion hearing. (R. 330)

APBENDIX I

Exerpt from January 6, 2016 motion hearing. (R.331)

APPENDIX J

Excerpt from February 3, 2016 oral ruling.

APPENDIX K

Excerpt from February 26, 2018 Machner hearing. (R.396)

APPENDIX L

Excerpt from May 1, 2018 Machner hearing. (R.397)

APPENDIX M

Qral ruling on Postconviction motion. (R.398)

APPENDIX N

Order denying Petition For Review to Wisconsin State Supreme
Court.

j.

v

(R.271)

(R.332)

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari be issued to review
the judgment below.

OPINIONS BELOW

The opinion of the highest state court to review the merits appears at (APP.A)
to the petition and is reported at 390 Wis. 2d 426. 939 N.W. 2d 427 (table),
2020 WI APP 6.

JURISDICTION

The date on which the highest state court decided on this case was December
17, 2019.

A copy of that decision appears at APP A.

A timely petition for rehearing was thereafter denied on the following date
January 7, 2020, and a copy of that order appears at APP. B and C.

A timely petition for review was thereafter denied by the Wisconsin Supreme
Court on July 15, 2020, and a copy of that order appears at APP. N.

The Jurisdiction of this Court is invoked under 28 U.S.C. 1257 (a).

1

CONSTITUTIONAL AND STATUTORY PROVISIONS

This case presents intriguing issues of first impression and will resolve
unanswered questions in United States law and laws of Wisconsin,

See Court

reporter Act, 28 U.S.C. §753, Due Process Clause, Fifth and Fourteenth
Amendment of the United States Constitution, 18 U.S.C §1512, Federal Rules
of Criminal Procedures, Federal Rules of Appellate Procedures, and Wis. Stat.
§809.62 (Ir) (c) (2).

First, this case will resolve the issue of whether dismissal is an available
remedy for a Brady violation (Brady v. Maryland, 373 U.S. 83, 87 (1963)),
a question which has many jurisdiction divided.

Some courts have suggested

that a new trial is the harshest sanction available.

See e.g., United States

v. Davis, 578 F. 2d 277, 280 (10th Cit. 1978); United States v. Evans, 888
F. 2d 891, 897 n. 5 (D.C. Cir. 1989).

Other jurisdictions have concluded

that dismissal is an available remedy to a Brady violation.

See*e.g., U.S.

v. Chapman, 524 F. 3d 1073, 1086 (9th Cir. 2008); U.S. Pasha, 797 F. 3d 1122
1139 (D.C. Cir. 2015);

Gov't, of Virgin Islands v. Fahie, 419 F. 3d 249,

254-55 (3rd Cir. 2005).

Second this case will also address whether dismissal is required where
police destroy key evidence in bad-faith, an issue that has divided many courts.
See McCarty v. Gilchrist, 646 F. 3d 1281, 1288 (10th Cir.)(collecting cases).

This case also presents a third issue that is also suitable for review.
The absence of a complete transcript of the trial, and does it mandate reversal
when it makes appellate review more difficult, and whether the particular
2

omission from the transcript prejudices the defendant's right to appeal.
The Wisconsin Court of Appeals decision in this case is in conflict with their
leading case.
(1987).

See State v. Perry, 136 Wis. 2d 92, 99, 101, 401 N.W. 2d 748

It is also in conflict with 28 U.S.C.A §753 (b); Fed. R. App. P.

10 (c).

STATEMENT OF THE CASE

In the early morning of December 8, 2013, police responded to a call
that there was a possible gunshot fired at the Luna Lounge in Appleton, WI.
R. 401:62-63, 89.

When officers arrived;, they found the victim on the ground

near the entrance to the bar with blood on the left side of his head.
at 68-69, 75.

Id.

The victim died from that gunshot wound. R. 403; 39, 53. A

security ;gaurd at Luna was in close proximity to the shooting, and he directed
law enforcement to two Asian individuals, wearing white vest and white hat,
who quickly ran out the door and turned right. R. 401;70, 95, 101-03, 11920.

Law enforcement reviewed the footages from traffic cameras and cameras

from inside the bar and identified these three individuals as Joe Thor, Paur
Lee (aka Paul), and Phong Lee.

These suspects ran toward a dumpster area,

and police collected two items of clothing from inside that dumpster, a white
vest, and a Chicago Bulls hat. Id. at 82-88.
to discarding those clothing.

Joe Thor and Phong Lee admitted

R. 402: 143; 406; 41-42.

Police narrowed in on Paur Lee (hereinafter Paul), who was wearing a
white jacket and ran with his hand in his pocket.
401:85.

R. 406: 163; 404:62; and

Police learned that just before the shot, Paul was in a verbal and
3

physical altercation with the victim and as Paul punched the victim a gyn
went off simultaneously.

R. 401:223-24.

Security camera footage revealed

that Paul had an object in his hand, and police believed this item to be a
gun.

R. 339:164-65.

Police arrested Paul for the homicide.

R. 331:30.

At the time Paul was arrested police had no information to indicate that
the defendant Chong Lee (hereinafter Chong), was the shooter.

R. 399:131.

Over the course of multiple police interrogations, police repeatedly accuse
Paul of being the shooter, told Paul that several individuals identified Paul
as the shooter, and told Paul that he would be going to prison for life.
Id. at 160-61, 164-65.

Paul was told that the only option for him not to

be charged was for him to name the shooter.
involvement.

Id. at 165-66.

Paul denied any

One of the officers (SGT. Chue Lee Thao) then suggest to Paul,

"your brother Chong is the shooter." After a few attempts of denying Chong
was the shooter, Paul was told, "either you did it or your brother did it."
Id. at 205, 207.

Paul then said Chong was the shooter.

told Paul, "we've built this great case against you.

Thereafter, police

Now all we gotta do

is get rid of that case to show it wasn't you, that it was in fact, your
brother Chong." R. 243:6.

Police then arrested Chong.

Id. at 87.

Chong was subsequently charged with the homicide. R. 1.

The complaint

was based exclusively on various witnesses who claimed that Chong confessed
to the crime.

R.l.

Despite the fact that there were at least 150 patrons

in Luna that evening, the complaint referenced no eyewitnesses identifying
the shooter.

R. 328:66.

Specifically on December 11, 2013, the same-day

Paul was arrested, police interviewed three witnesses to the shooting: Ryan
Ihao, Mickey Thao, and Watou Lee.

All three of these individuals identified

the shooter and gave descriptions ©f the shooter's clothing, personal
characteristics, and direction of travel.
4

None of these witnesses said the

shooter was Chong and Mickey Thao knew Chong personally as he grew up with
Chong.

He thought that Chong was still in prison.

R. 328:31-50; 330:85-86;

331:34, 36-39.
The interviews with these three witnesses were recorded, and the
recordings were maintained in evidence for seven to eight months after the
defendant was charged with the homicide.

However, after a few motions to

compel evidence, police intentionally withheld this evidence and later at
a pretrial hearing after discovering they had inadvertently disclosed this
evidence through a whiteboard (which contained eyewitnesses names and officer
badge numbers next to witnesses they interviewed), to defense, officers went
back and re-interviewed these three witnesses and then, "[they] knew through
discovery the defense would be able to obtain [this evidence]," so the police
destroyed the 2013 interviews.

R.328:25-27, 32, 35-37, 43, 63-65.

Chong filed a motion to dismiss on grounds that the State had violated
both Brady and Youngblood in failing to disclose, and subsequently destroying,
the evidence relating to these three witnesses.

R. 91:97.

See Brady v.

Maryland, 373 U.S. 83, 87 (1963); Arizona v. Youngblood, 488 U.S. 51 (1988).
The circuit court concluded that Chong established that the destroyed
evidence was potentially exculpatory, that police acted in bad-faith, and
that "action is warranted." R. 332:9-11,13.

However, the court stated that

dismissal was unwarranted due to the facts and circumstances associated with
this case.

Id. at 13.

Instead, 'the court suppressed these three witnesses.

Based on the court's ruling, the jury never heard from the only witnesses
who could identify the shooter and who did not identify Chong as the shooter.
R. 328:38; 331:35, 38; 400; 410.

5

This case involved a myraid of additional pretrial issues, including
whether the State could present evidence to the jury that Chong said he would
"beat this case." R. 30:1.

The State filed three separate briefs vigorously

arguing for the admission of Chong's reference to "beat this case" on grounds
that these statements showed a consciousness of guilt.

R. 37; 71; and 89.

The circuit court ruled that references to "beat this case" was inadmissible
because the statement was irrelevant and would only confuse matters. R. 95.
This case proceeded to an eleven day trial.

R. 400; 410.

At trial,

the State asked one of their witnesses, Stephanie Thao, to read a letter Chong
wrote her, in which Chong said, "I'm pretty sure I'll beat this case though."
During deliberations, the jury asked to see that letter.

R. 27.

However,

there is no transcript of the jury's question to the court, any arguments
of counsel, or the court's decision in response to the jury's request,

The

jury found Chong guilty of the homicide, felon in possession of a firearm,
and two counts of intimidation of witnesses.
Chong subsequently filed a postconviction motion asserting that trial
counsel was ineffective for a variety of reasons, including that counsel failed
to object to the admission of the letter in which Chong said, "I'm pretty
sure I'll beat this case thpugh" and failed to object when the jury asked
to see this letter.

R. 248:8-9.

When Chong questioned trial counsel about

their actions at the evidentiary hearing, new facts emerged.

Lead defense

counsel, Attorney Debra Vishney, could not recall nor offer any explanations
as to why an objection was not made.

R. 396:35.

were discussions before the verdict was received.
6

She recalled that there
She agreed that the

reference to "beat this case" should not have been in evidence but could not
recall how this evidence ultimately got before the jury, whether counsel failed
to object or whether the court adnitted the evidence over objection of counsel.
Id. at 37-43.
Co-counsel, Attorney Evan Weitz, agreed that references to "beat this
case" was inadmissible.

R. 397:20.

Attorney Weitz could not recall why he

did not object to this reference given the court's prior ruling.
22.

Id. at 21-

He recalled that the parties spent "quite a bit of time in chambers"

going through various pieces of evidence, and that the court made rulings
in chambers as to what evidence was admissible.

He could not reccall whether

he objected in chambers to this reference coming into evidence.

As to the

letter going to the jury at its request, Attorney Weitz recalled that when
the jury presented questions, the parties would reconvene in the courtroom
to address the questions.

Attorney Weitz could not recall if he objected

to the letter containing "beat this case" going to the jury.

Id. at 22-26.

The postconviction Judge, who presided over the trial, indicated that he does
not "have an independent recollection" of the discussions relative to the
jury questions.

R. 396:37-38.

Chong subsequently asserted that he has been denied the right to a meaningful
appeal due to the lack of transcripts.

R. 305:8-15.

Specifically, because

Chong is unable to determine how or why the "beat this case" reference, previously
deemed inadmissible got before the jury, he cannot identify where his claim
of error lies: whether his claim is that trial counsel was ineffective in
failing to object or whether the Circuit Court erroneously admitted this evidence
over trial counsel's objection.

Id. at 12.

The Circuit Court concluded that

"the why question to the allowance of the statement is not one of the type
7

of question that would lead to a showing of prejudice."

R. 398:21.

Chong appealed and argued that: 1) the State violated his right to due
process under Brady by failing to disclose the December 2013 interviews of
Mickey Thao, Ryan Thao, and Watou Lee during the seven to eight months the
police possessed them and that dismissal is the only adequate remedy; 2) the
State violated his right to due process under Youngblood by destroying any
record of the December 2013 interviews and that dismissal is required; and
3) that the missing transcripts deprived Chong of his right to a meaningful
appeal.

The Court of Appeals affirmed the conviction,

see App. A, 11 1.

As to the Brady issue, the Court of Appeals concluded that Chong failed
to show that the evidence was favorable or that it was material to a dtermination
of his guilt.

Id., U 22.

As such, the Court of Appeals did not address whether

dismissal is an available remedy.

As to the Youngblood issue, the Court of

Appeals agreed with the Circuit Court's analysis that the destroyed evidence
was only potentially exculpatory and that the police acted in bad-faith.
Id., U11 41,44.

The Court rejected Chong's argument that dismissal is mandatory

when police destroy evidence in bad-faith and held that circuit courts have
discretion in determining the appropriate remedy.

Id., 11 47.

The Court further

concluded that the circuit court exercised proper discretion in declining
to dismiss the case.

Id., H 48.

Finally, the Court of Appeals held that

the absence of transcripts relating to the admission of the "beat this case"
evidence did not deny Chong, the right to a meaningful appeal.

Id., 11 60.

The Court explained that Chong could have argued on appeal that the circuit
court erred in its decision to admit this evidence (even though there is no
indication that the circuit court even made a decision), reasoning that the
Court of Appeals would have independently reviewed the record to determine
whether proper discretion was exercised.

8

Id., Ml 56, 59.

On January 3, 2020, Chong filed a motion for reconsideration as to the
Court's ruling on the transcript issue,

see App. C.

Chong argued’1 that he

reasonably believed that where he is unable to establish potential error due
to the absence of transcripts, his remedy is that which is mandated by the
Perry case, a new trial.

Id.

Given the Court's ruling that he could have

directly raised This claim, Chong asked the Court to remand the case to allow
him to do so.

Id.

The Court of Appleals denied the motion,

see App. B.

On January 22, 2020, Chong filed a Petition For Review to the Supreme
Court of Wisconsin and on July 15, 2020, that petition was denied,
N.

see App

This petition follows that order.

REASONS FOR GRANTING THIS PETITION

I.

DISMISSAL IS AN AVAILABLE REMEDY FOR A BRADY VIOLATION AND CHONG ESTABLISHED
A BRADY VIOLATION AND SUCH VIOLATION WARRANTS DISMISSAL

A.

Introduction

At trial, the State presented no witnesses who could identify the shooter
in this case.

However, just after the shooting, police interviewed three

eyewitnesses who gave a description of the shooter's clothing, direction of
travel, and personal characteristics.
Chong as the shooter.

None of these witnesses identified

The interviews with these three witnesses were recorded

and the recordings were maintained in evidence for seven to eight months;
however, police never disclosed this evidence to the defense during this time
and after multiple motions to compel from defense, police learned that they
had inadvertently disclosed this evidence to defense team,

Police then "knew

through discovery the defense would be able to obtain [this evidence]," so
9

they destroyed it.

R. 328:25-27, 32, 35-37, 43, 63-65.

The recordings were

never recovered, and police were unable to recall the specifics of the witnesses
original statements.
Although Chong is entitled to relief under the Trombetta/youngblood
destruction of evidence line of cases, he is also entitled to relief under
Brady, given that the State maintained this evidence for seven to eight months
after defense put in multiple motions to compel, yet fpiled to disclose it
in a timely manner and had it not been [inadvertently disclosed] to the defense,
this evidence would have remained undisclosed and defense would have never
known about it.

Given the intent and egregiousness of the Government's conduct

and the incurable prejudice to Chong, dismissal is warranted.

B.

Dismissal is an available remedy for a Brady violation

Wisconsin has generally recognized that the remedy for a Brady violation
is a new trial.
2d 397.

State v. Harris, 2008 WI 15, II 62, 307 Wis. 2d 555, 745 N.W.

This remedy however, presumes that the defendant has obtained and

is able to present the exculpatory material at a new trial.

There are certain

circumstances, such as the case here, where the States failure to disclose
exculpatory evidence forever deprives a defendant of the opportunity to have
a fair trial.

In these circumstances, dismissal is warranted, and Chong ask

this Court to accept this case to so hold.
Other jurisdictions disagree on whether dismissal is available to remedy
a Brady violation.
sanction available.
(10th Cir. 1989).

Some courts have suggested that a new trial is the harshest
See e.g., United States v. Davis, 578 F. 2d 277, 280
Other jurisdictions have concluded that dismissal is available

to remedy a Brady violation.

See e.g., United States v. Chapman, 524 F. 3d
10

1073, 1086 (9th Cir. 2008); United States v. Pasha, 797 F. 3d 1122, 1139 (D.C.
Cir. 2015); Gov't of Virgin Islands v. Fahie, 419 F. 3d 249, 254-55 (3rd Cir.
2005).

In Fahie, the Third Circuit noted that although the United States

Supreme Court has never directly addressed the issue, "it has left open the
possibility of barring retrial in response to particularily egregious due
process violations."

Fahie, 419 F. 3d at 252.

This Court, in a series of cases, has attempted to clarify the guidelines
for the situation of suppressed or destroyed evidence.

Thus, in the landmark

case of Brady v. Maryland, 373 U.S. 83, 83 S. Ct. 1194, 10 L. Ed. 2d 215 (1963),
this Court held that the suppression by the prosecution of evidence favorable
to the accused upon request violates due process where the evidence is material
either to guilt or to punishment, irrespective of the good faith of bad faith
of the prosecution.

In U.S. v. Agurs, 427 U.S. 97, 96 S. Ct. 2392, 49 L.

Ed. 2d 342 (1976), this Court held that where a specific request for a piece
of evidence is made, the test for reversal is whether the suppressed evidence
might have affected the outcome of the trial,

but where a more general request

for exculpatory information is made, the standard is whether the omission
of evidence by the prosecution resulted in the denial of a fair trial.

Here,

the destroyed evidence could have been used for impeachment purposes and could
have been used to identfy the shooter.

In California v. Trombetta, 467 U.S.

479, 104 S. Ct. 2528, 81 L. Ed. 2d 413 (1984), this Court rejected a claim
that test results indicating the concentration of alcohol in the blood of
two motorists should be suppressed on the grounds that the State had failed
to preserve the breath samples used in the test.

In Arizona v. Youngblood,

488 U.S. 51, 109 S. Ct. 333, 102 L. Ed. 2d 281 (1988), a prosecution for sexual
molestation of a 10-year old boy, this Court held that the defendant was not
denied due process by failure of the police to refidgerate the boy’s clothing
11

and to perform tests on seman samples, thereby preserving potentially useful
evidence for the defendant.

This Court explained that failure of the police to

preserve potentially useful evidence is not a denial of due process of law
unless the defendant can show bad faith on the part of the police.
this case there is no doubt of what the police's intentions were.

Here in
As the

police admitted it at the pretrial hearing "they knew through discovery the
defense would be able to obtain that evidence so they decided nothing would
be retained."

See R. 328:65

To destroy exculpatory evidence only to replace

it with other evidence is in itself a due process violation.

See State v.

Jordan, 73 Ohio App. 3d 524r 597 N.E. 2d 1165 (1992).
Before the court of appeals, the State acknowledged that this issue
presents an open question under Wisconsin law, but urged the court not to
resolve this issue, asserting that it was not ripe.

See State's Brief at 14.

Ultimately, the court of appeals did not reach this issue, as it concluded
that there was no Brady violations.

See App. A.

This Court should accept

this case to resolve this issue and should hold that some Brady violations,
like the one here, require dismissal.

C.

Chong established a Brady violation

lhis Court should accept this case to resolve the remedy issue discussed
above.

Chong also ask that this Court apply that rule to the facts of his

case to determine whether he is entitled to relief.

Given the highly factual

nature of whether Chong has established a Brady violation, the mandate that
petitions be as short as possible, and Chong's looming word count limit, Chong
will not fully develop this subsidiary issue in this petition.
12

D.

Dismissal is the only adequate remedy

The facts of this case illustrates why dismissal must be a remedy when a
new trial will not cure the prejudice resulting from the State's conduct.

In

this case, Chong can never obtain the exculpatory evidence of these witnesses'
December 11, 2013 statements; the State made sure of this by intentionally
destroying anything relating to these three eyewitnesses.

As a result,

Chong is unable to ever present this evidence, and a new trial would not
remedy the harm,

The only remedy to rectify the State's malicious and

egregious conduct is dismissal.
This Court should resolve the unanswered question as to whether dismissal
is a remedy available for a Brady violation, should answer that question in the
affirmative, should conclude that a Brady violation occured, and should hold
that such violation commands dismissal of this case.

WHETHER DISMISSAL IS REQUIRED FOR A YOUNGBLOOD VIOLATION?

II.

ALSO,

WHETHER THE YOUNGBLOOD VIOLATION IN THIS CASE MANDATE DISMISSAL.

A.

Dismissal is mandatory when police destroy evidence in bad faith

In Trombetta, this Court held that the State has a duty to preserve
"evidence that might be expected to play a significant role in the suspect's
defense."

California v. Trombetta, 467 U.S. 479, 488 (1984).

The focus

under Trombetta is on the "constitutional materiality" of the evidence,
that is, the apparently exculpatory value of, the evidence.

Id. at 489; see

also State v. Oinas, 125 Wis. 2d 487, 490, 373 N.W. 2d 463 (Ct. App. 1985).
When a defendant establishes a Trombetta violation, the "circuit court must
13

choose between barring further prosecution or supressing . . . the State's
most probative evidence." Trombetta, 467 U.S. at 487.

In determining a remedy

f$r a Trombetta violation, the Wisconsin Court of Appeals explained that
circuit courts are to balance "the quality of the Government's conduct and
the degree of prejudice to the accused." State v. Hahn, 132 Wis. 2d 351, 362,
392 N.W. 2d 464 (Ct. App. 1986)(quoting United States v. Roberts, 779 F. 2d
565, 569 (9th Cir. 1986)).
Subsequently, in Youngblood, this Court expanded on Trombetta by addressing
the role that law enforcement's intent in destroying evidence plays in the
analysis.

Youngblood, 488 U.S. 51, 58 (1988).

Youngblood held that where

police act in bad faith, a defendant need only show that the evidence was
"potentially useful" to establish a due process violation.

Id. at 57-58.

The law is clear that courts have discretion in determining the
appropriate remedy for a Trombetta violation.

Trombetta,

467 U.S. at 487

(the "court must choose between barring further prosecution or supressing...
the State's most probative evidence.").

However, Wisconsin has yet to

address whether circuit courts have such discretion where bad faith is at
issue.

Chong submits that where the circuit court has found that police

acted in bad faith in destroying evidence, dismissal is mandatory. When
dealing with apparently exculpatory evidence under a Trombetta violation
the intent of the Government, is irrelevant (Youngblood, 488 U.S. at 57),
so it makes sense that intent becomes relevant in evaluating the harshness
of the remedy to impose.

But where a Youngblood violation is at issue,

intent is part of the threshold question.

Id. at 57-58.

Where the court

has already found that police acted in bad faith, analyzing the bad faith
of police becomes redundant and irrelevant in the remedy analysis.

14

The court of appeals in this case concluded that bad faith comes in
varying degrees and that the bad faith at issue in this case was not of a "high
degree"

See APP A at H 49.

Chong submits that bad faith enbodies a single

degree of mens rea, reserved for the most egregious of actions.

Good faith

(or perhaps a more apt term "not in bad faith") encompasses a broad spectrum
of conduct, whether that be that evidence was destroyed in accordance with
routine procedures (State v. Luedtke, 2015 WI 42, 11 56, 362 Wis. 2d 1, 863
N.W. 2d 592), that police failed to ensure evidence was preserved (Youngblood,
488 U.S. at 57-58), or that police were negligent in handling evidence
(Greenwold II, 189 Wis. 2d 68).

On the other hand, bad faith embodies a single

degree of malice requiring a defendant to establish the high burden that
"officers acted with official animus or made a conscious effort to destroy the
exculpatory evidence." Luedtke, 362 Wis. 2d 1, 11 46 (quoting Greenwold II, 189
Wis. 2d at 69).
Other jurisdictions are split as to whether a Youngblood violation requires
dismissal or whether the court has discretion in imposing alternative remedies.
McCarty v. Gilchrist, 646 F. 3d 1281, 1288 (10th Cir. 2011)(collecting cases).
Some jurisdictions hold that the only remedy for the bad faith destruction of
potentially exculpatory evidence is dismissal. Id. (citing State v. Lang, 176
Ariz. 475, 862 P. 2d 235, 245 (Ariz. Ct. App. 1993); lolly v. State, 611 A. 2d
956, 960 (Del. 1992); United States v. Day, 697 A. 2d 31, 36 (D.C. 1997); Cost
v. State, 417 Md. 360, 374, 10 A. 3d 184 (Md. 2010); Norman C. Bay, Old Blood,
Bad Blood, and Youngblood: Due Process, Lost Evidence, and The Limits of Bad
Faith, 86 Wash. U.L. Rev. 241, 296 (2008), Dismissal of Case Against Defendants
with Prejudice as Discovery Sanctions Against State, 10 A.L.R. 7th Art. 6 (2016).
Although Youngblood did not directly address the remedy for a violation, as
it found no violation, the remedy contemplated by this court was dismissal.

15

Youngblood, 488 U.S. at 52 (reviewing the decision of the Arizona Court of
Appeals in State v. Youngblood, 153 Ariz. 50,

734 P. 2d 592, 596 (Ariz. Ct.

App. 1986) concluding that dismissal is required).

Similarily, following

Youqgblood, the Wisconsin cases analyzing this issue have all contemplated
dismissal as the remedy.

See Greenwold II, 189 Wis. 2d at 63 (reviewing the

circuit court's order dismissing homicide charges); Hugget, 324 Wis. 2d 786,
1111 25-28 (reviewing the circuit court's order dismissing homicide charge);
Luedtke, 362 Wis. 2d 1 1111 5, 17, (reviewing the circuit court's order denying
defendant's motion to dismiss).
Finally, requiring dismissal where a Youngblood violation occurs will
have an important deterrent effect.

When police act in bad faith, they "the

police by their conduct indicat that the evidence could form a basis for
exonerating the defendant." Youngblood, 488 U.S. at 58.

Such conduct on the

part of the police has no place in this justice system, and automatic dismissal
for this behavior will ensure that the integrity of this justice system stay
true.
As the State conceded in Hugget, "while dismissal may be proper where the
State has acted in bad faith in failing to preserve exculpatory evidence (at
least 'apparently exculpatory' evidence), dismissal should not be an automatic
remedy in cases' not involving bad faith." 324 Wis. 2d 786, 11 26.

B.

The Circuit Court and the Court of Appeals agree that a Youngblood
violation occurred

The circuit court found, and the court of appeals agreed, that a Youngblood
violation occurred in this case.

See App. A.

That is, that the police acted in

bad faith in destroying potentially exculpatory evidence.

16

Id.

Due to the

highly factual nature of this aspect of the analysis, the findings of the lower
courts, and the mandate that petitions be as short as possible, Chong will not
fully develop this subsidiary issue in this petition.

Chong notes, though,

that he maintains his position that the evidence in this case went beyond
potentially exculpatory and satisfied the standard of apparently exculpatory.
Ultimately, such distinction is of no consequences because when police act in
bad faith , as is the case here, Chong need only show that the evidence was
potentially exculpatory.

Youngblood, 488 U.S. at 57-58.

As discussed above,

this Court should hold that where bad faith has been established, dismissal is
required.

Because police maliciously and with intent chose to destroy this

evidence after given notice through motions that the defendant was seeking
such evidebce to use at trial, either for impeachment purposes or to exonerate
him, dismissal is required.

C.

If dismissal is not automatic for a Youngblood violation, the Circuit
Court erred in selecting the remedy of suppression of these witnesses

In raising this issue before the trial court, Chong moved to dismiss or,
alternatively, supress "any in court identification of Chong Lee by any witness
interviewed by law enforcement in which law enforcement destroyed the recorded
statement of said witness [and] ... any testimony that links Chong Lee to the
homicide in this case." The circuit court concluded that dismissal was
unreasonable in light of the facts and circumstances associated withthe case.
Instead, the court ordered that "the [court] (sic) shall be prohibited from
calling Ryan Thao, Mikey Thao, and Watou Lee." ("sic"'notation in original
transcript).
The court's selection of remedy did not right the wrong in this case.

17

In

the December 2013 interviews, these witnesses identified the shooter and did
not identify Chong as that individual.

R. 328:37-38

Thus, this evidence

would have presented reasonable doubt as to whether Chong was the shooter,
and prohibiting the testimony of theses witnesses had a more detrimental
effect.
The court of appeals rejected this argument, concluding that the circuit
court's ruling did not prevent Chong from calling these witnesses and that
Chong had evidence of these witnesses' subsequent Aprol 2015 statements. See
App. A at llfl 50, 52.

According to the court of appeals, the circuit court

prohibited only the State from calling these witnesses. Id. at 11 52. As an
initial point, this conclusion is not entirely accurate.The circuit court's
precise ruling was that "the [court] (sic) shall be prohibited from calling
Ryan Thao, Mikey Thao, and Watou Lee."

See App. J at 13.

(Emphasis added)

While the court of appeals implicitly interpreted the circuit court's
ruling as."the State shall be prohibited from calling...[,]" it is unclear
whether the circuit court intended such, whether the court was prohibiting
the testimony of these witnesses altogether, whether the court's words
should be taken at face value, or something else. Id;

In any event calling

these witnesses without evidence of their December 2013 interviews would
have been fruitless.

By April 2015, it was clear that these witnesses were

iinculpating Chong.

Without the content of the December 2013 interviews;to

impeach these witnesses, anything dealing with their April 2015 interviews
was harmful.
This Court in Youngblood has stated, ("We therefore hold that unless a
criminal defendant can show bad faith on the part of the police, failure to

18

preserve potentially useful evidence does not constitute a denial of due
process of law").

488 U.S. at 58, 109 S. ct. 333.

conceded and admitted to by the police.

Here, the bad faith was

In their own words "they knew through

the discovery process, the defense would be able to obtain it",
destroy it.

R. 328:65.

they chose to

They knew that by withholding this evidence and not

disclosing it to the defense it would impair the defendant to have a fair
trial.

After they found out that they had inadvertently disclosed these

witnesses to the defense, they chose to go replace or substitute the December
2013 interviews with the April 2015 interviews to implicate Chong to secure
a conviction.

This action in itself constitute a violation of Chong's right

to due process under the Due Process Clause and the only way to cure this
prejudice is to dismiss this case.

See State v. Jordan, 73 Ohio App. 3d 524,

597 N.E. 2d 1165 (1992).

ITT.

WHETHER THE ABSENCE OF TRANSCRIPTS ENTITLE CHONG TO A NEW TRIAL?

A.

Introduction

Prior to trial, after lengthy litigation, the circuit court ruled that
the State could not present evidence that Chong said he would "beat this case."
R.

95.

However, this evidence was ultimately presented to the jury through

testimony.

In addition, during deliberations, the jury asked to see the

letter wherein Chong wrote that he would "beat this case," and the court sent
that letter to the jury.

R.

271

Chong asserts that trial counsel was

deficient in failing to object to this evidence.

During the postconviction

process, Chong learned that critical portions of the trial were not transcribed
including various in-chambers evidentiary hearings as well as the discussions
and rulings that took place in response to the jury's questions.
19

Because there

are no transcripts of these portions of the proceedings, Chong cannot assert
a claim relative to the improper admission of the "beat this case" evidence.

B.

Legal Principles

The Court Reporter Act, which was enacted in 1944, provides in pertinent
part that:
each session of the court and [] every other
proceeding designated by rule or order
of the court or by one of the judges []... shall
be record[ed]

verbatim [, including]... all

proceedings in criminal cases had in open court...
28 U.S.C. § 753(b).
Similarly,.the Wisconsin Constitution guarantees a defendant an absolute
right to appeal.

Wis. Gonst. art I, §'21(1).

As part of this guarantee,

a defendant has the right to a "meaningful" appeal.
Wis. 2d 92, 98-99, 401 N.W. 2d 748 (1987).

State v. Perry, 136

To ensure the defendant has a

right to a "meaningful appeal", the "law requires that a defendant be
furnished a full transcript-or a functionally equivalent substitute that,
in a criminal case, beyond a reasonable doubt, portrays in a way that is
meaningful to the particular appeal exactly what happened in the course of
trial."

Id. at 99.

An incomplete record that prevents a defendant "from

dtftionstrating possible errors constitutes a constitutional deprivation of
the right to appeal."

Id.

Where an incomplete record denies the defendant

the right to a meaningful appeal, a new trial must follow.

Id.

If a portion of the trial record is missing, a defendant need only

20

show a "colorable need" for the missing portion of the record.
at 108.

Id.

A defendant has a "colorable need" for a missing portion of the record

when evidence of that missing portion might lend to a claim of prejudicial error
on appeal. Id. at 101.

A defendant need not establish prejudicial error; he

need only allege "that there is some likelihood that the missing portion would
have shown error that was arguably prejudicial."

Id. at 103.

At the same time,

the possible "error cannot be of such a trivial nature that it is clearly
harmless."

Id. at 108.

Once the defendant demonstrates a "colorable need" for the missing portion
of the record, the duty then shifts to the circuit court "to determine whether
the missing portion of the record can be constructed."

Id. at 101.

If the

record cannot be reconstructed beyond a reasonable doubt and without speculation
the remedy is a new trial.

C.

Id.

Chong has established a colorable need for the missing transcripts

Prior to trial, Chong sought to exclude any references he made over the
phone or in writing that he would "beat this case." The State filed three
separate briefs vigorously arguing for the admission of Chong's reference to
"beat this case" on grounds that these statements showed a consciousness of
guilt.

The circuit court ruled that the reference to "beat this case" was

inadmissable because the statement was irrelevant and would only confuse matters.
Despite the court's ruling, the State presented evidence to the jury that
Chong said he would "beat this case."

Specifically, the State introduced these

statements to the jury through Stephanie Thao, via a letter Chong wrote her. R.
404:220.

During deliberations., the jury asked to this letter.

21

R. 271.

There:

is, however, no transcripts of the discussions following the jury's questions,
of any arguments of counsel, or of any decision on how the court responded
to the jury.

The record simply shows that the court sent the letter to the

jury with the majority of its original form redacted; however, one key portion,
"I'm pretty sure I'll beat this case tho[,]" was not redacted.

Id. at 2-4; R.167.

The transcripts do not reflect any objection from trial counsel as to the
admission of the "beat this case" reference or to the jury viewing the letter
with the phrase "beat this case."

Based on the circuit court's plain ruling

that this phrase was not to be presented to the jury, Chong asserted in his
postconviction motion that counsel was ineffective in failing to object. R.
298 at 1, 8-9.

When Chong questioned counsel on their actions at the Machner

hearing, new facts emerged.

Lead defense counsel, Attorney Vishney, could not

offer any explanation as to why an objection was not made.

R. 396:35.

Attorney

Vishney agreed that reference to "beat this case" should not have been in
evidence but could not recall how this evidence ultimately got before the jury
whether counsel failed to object or whether the court admitted the evidence
over objection.

See Id. at 41-43.

Co-counsel, Attorney Weitz, agreed that reference to "beat this case" was
inadmissible.

R. 397:20.

Attorney Weitz could not recall why he did not object

to this reference given the court's prior ruling.

Id. at 21-22.

He did recall

though that the parties spent "quite a bit of time in chambers" going through
various pieces of evidence, and that the court made rulings in chambers to this
reference coming into evidence.

Id. at 23.

As to the letter going to the

jury at its request, Attorney Weitz recalled that when the jury presented
questions, the parties reconvened in the courtroom to discuss the questions.
Id. at 24-25.

Attorney Weitz could not remember whether he objected to the

letteer containing "beat this case" going to the jury.

23

Id. at 26.

As a result, Chong is unable to determine how or why the "beat this case"
reference, previously deemed inadmissible, got before the jury.

See R. 95.

This leaves Chong unable ti identify or assert where his claim of error lies:
whether his claim is that counsel was ineffective in failing to object or
whether the circuit court erroneously or intentionally admitted this evidence
over counsel's objection.

Because this evidence was ruled inadmissible and

because it was ultimately-for reasons unknown-presented to the jury, Chong
has shown "that there is some likelihood that the missing portion would have
shown an error that was arguably prejudicial."

Perry, 136 Wis. 2d at 103.

While Chong is not required to show prejudice, he has done so.

First,

his comment that he would "beat this case" supported the inference that Chong
was not seeking to prove his innocence; rather, that he would be acquitted of
charges of which he was charged.

In colloquial terms, that he would "get off."

Second, the State agreed that these statements were incriminating when they
vigorously argued for their admission as evidence a "consciousness of guilt."
R. 37, 71, 89.

Finally, the jury took particular note of these statements in

deliberations, requesting to see the letter in which Chong purportedly told
Thao he would "beat this case." R. 271.

Accordingly, Chong has satisfied the

notably low threshold of establishing "that there is some likelihood that the
missing portion would have shown an error that was arguably prejudicial."
Perry,

D.

136 Wis. 2d at 103 (emphasis added).

The record cannot be reconstructed

During the postconviction process, Chong attempted to reconstruct the
record; however, defense counsel could not recall the contents of these offthe-record discussions.

R. 396:37, 39, 40-43; R. 397:23-26.
24

The State offered

no reconstruction of the record.

See R. 306.

Ultimately, the court indicated

that it does not "have an independent recollection" of the discussions relative
to the jury questions. R. 396:37-38.

Based on the testimony of counsel and

the comments of the court, it is impossible to speculate as to what occurred
off-the-record, much less recreate an accurate record beyond a reasonable
doubt.

E.

Accordingly, a new trial is warranted!!

Perry,

136 Wis. 2d at 101.

The Court of Appeals' decision is in conflict with Perry

The court of appeals implicitly recognized Chong's colorable need, noting
that a party aggrieved by the loss of a record is not made to bear the burden
of the loss. See App. A at II 56.

However, instead of granting the remedy

proscribed by Perry, a new trial (136 Wis. 2d at 101), the court of appeals
concluded that the proper remedy was for Chong to directly challenge the court's
ruling despite being unable to show that a ruling was even made.

App. A at 11 56.

Here, the incomplete record prevented Chong "from demonstrating possible error[,]"
and Chong is entitled to a new trial.

See Perry, 136 Wis. 2d at 101.

The court

of appeals' decision that the incomplete record entitled Chong to directly
assert a claim is in conflict with the remedy required by Perry and should be
overturned by this Court.
Even more concerning, given the court's ruling, Chong filed a motion for
reconsideration, asking the court of appeals to remand the case and permit
him to make this argument.

See App[J C. The court of appeals denied the motion.

ApplJ B. Accordingly, Chong is left without any recourse where plainly inadmissible
evidence was wrongly presented to, and considered by the jury.

25

CONCLUSION

ift

*

Based on the above reasons, Chong request that this Court grant this
petition and vacate the judgment or in the alternative reverse and remand
this case for a new trial.

Dated this

day of November, 2020.

A

Jk

CHONG LENG LEE #439266
P.0. BOX 351
Waupun, WI 53963-0351
PRO SE
«

ft

26

